                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                          November 15, 2011



MEMORANDUM TO:             Chairman Jaczko



FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   INDEPENDENT AUDITOR’S REPORT ON THE U.S.
                           NUCLEAR REGULATORY COMMISSION’S SPECIAL-
                           PURPOSE FINANCIAL STATEMENTS AS OF
                           SEPTEMBER 30, 2011, AND FOR THE YEAR THEN ENDED
                           (OIG-12-A-05)


This memorandum transmits the Clifton Gunderson, LLP (CG) Independent Auditor’s
Report on the U.S. Nuclear Regulatory Commission’s (NRC) special-purpose financial
statements, including the reclassified balance sheet, as of September 30, 2011, and the
related reclassified statements of net cost and changes in net position for the year then
ended (Attachment 1). This audit was performed for the purpose of providing financial
information to the U.S. Department of the Treasury and the U.S. Government
Accountability Office for use in preparing and auditing the Financial Report of the U.S.
Government.

Audit Results

CG issued an unqualified opinion on the reclassified balance sheet of the NRC as of
September 30, 2011, and the related reclassified statements of net cost and changes in
net position for the year then ended.

NRC’s special-purpose financial statements include comparative financial statements for
FYs 2011 and 2010 (Attachment 2). Therefore, it is important to note that Urbach Kahn &
Werlin, LLP, performed the audit of NRC’s FY 2010 special-purpose financial statements
and issued an unqualified opinion on the reclassified balance sheet of the NRC as of
September 30, 2010, and the related reclassified statements of net cost and changes in
net position for the year then ended.

If you have any questions, please call me at 415-5930 or Stephen Dingbaum, Assistant
Inspector General for Audits, at 415-5915.
Attachments: As stated


cc:   Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      J. Dyer, CFO
      N. Mamish, OE DO
      K. Brock, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO
                                                                                               Attachment 1




                                        Independent Auditor’s Report on
                                      Special-Purpose Financial Statements


                   Inspector General
                   United States Nuclear Regulatory Commission

                   Chairman
                   United States Nuclear Regulatory Commission


                   We have audited the accompanying reclassified balance sheet as of September
                   30, 2011, and the related reclassified statements of net cost and changes in net
                   position for the year then ended (hereinafter referred to as the special-purpose
                   financial statements) contained in the special-purpose closing package of the
                   United States Nuclear Regulatory Commission (NRC). These special-purpose
                   financial statements are the responsibility of NRC’s management.             Our
                   responsibility is to express an opinion on these special-purpose financial
                   statements based on our audit. The special-purpose financial statements as of
                   September 30, 2010 were audited by Urbach Kahn & Werlin LLP, which practice
                   was acquired by Clifton Gunderson LLP by merger on March 22, 2010. Urbach
                   Kahn & Werlin LLP’s report dated November 14, 2010, expressed an unqualified
                   opinion on those special-purpose financial statements.

                   We conducted our audit in accordance with auditing standards generally
                   accepted in the United States of America and the standards applicable to
                   financial audits contained in Government Auditing Standards, issued by the
                   Comptroller General of the United States; and, Office of Management and
                   Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
                   Statements, as amended. Those standards require that we plan and perform the
                   audit to obtain reasonable assurance about whether the special-purpose financial
                   statements are free of material misstatement. An audit includes examining, on a
                   test basis, evidence supporting the amounts and disclosures in the special-
                   purpose financial statements. An audit also includes assessing the accounting
                   principles used and significant estimates made by management, as well as
                   evaluating the overall special-purpose financial statement presentation. We
                   believe that our audit provides a reasonable basis for our opinion.

                   The accompanying special-purpose financial statements and accompanying
                   notes contained in the special-purpose closing package have been prepared for
                   the purpose of complying with the requirements of the U.S. Department of the
4250 N. Fairfax Drive, Suite 1020
Arlington, Virginia 22203
tel: 571.227.9500                           Offices in 17 states and Washington DC
fax: 571.227.9552
www.cliftoncpa.com
              INDEPENDENT AUDITOR’S REPORT, CONTINUED

Treasury’s Financial Manual (TFM), Volume I, Part 2, Chapter 4700, solely for
the purpose of providing financial information to the U.S. Department of the
Treasury and the U.S. Government Accountability Office to use in preparing and
auditing the Financial Report of the U.S. Government, and are not intended to be
a complete presentation of the NRC’s financial statements.

In our opinion, the special-purpose financial statements and accompanying notes
referred to above present fairly, in all material respects, the financial position of
the NRC as of September 30, 2011, and its net costs and changes in net position
for the year then ended in conformity with accounting principles generally
accepted in the United States of America and the presentation pursuant to the
requirements of the TFM, Chapter 4700.

The information included in the Other Data is presented for the purpose of
additional analysis and is not a required part of the special-purpose financial
statements, but is supplementary information required by the TFM, Chapter
4700. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methodology and presentation of this
information. We also reviewed such information for consistency with the related
information presented in the NRC’s financial statements. However, we did not
audit this information, and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04,
as amended, we have also issued a combined report dated November 7, 2011,
which presents our opinion on NRC’s financial statements, our opinion on NRC’s
internal control over financial reporting, and our consideration of NRC’s
compliance with certain provisions of laws and regulations. That report is an
integral part of an audit of general-purpose financial statement reporting
performed in accordance with Government Auditing Standards and OMB Bulletin
No. 07-04, as amended, and should be read in conjunction with this report in
considering the results of our audit.

In planning and performing our audit of the special-purpose financial statements,
we also considered the NRC’s internal control over the financial reporting
process for the special-purpose financial statements and compliance with the
TFM, Chapter 4700, but not for the purpose of expressing an opinion on the
effectiveness of the entity’s internal control over special-purpose statement
financial reporting. Accordingly, we do not express an opinion on the
effectiveness of the entity’s internal control over special-purpose statement
financial reporting. Management is responsible for establishing and maintaining
internal control over financial reporting, including Other Data, and for complying
with laws and regulations, including compliance with the TFM, Chapter 4700
requirements.

Our consideration of internal control over the financial reporting process for the
special-purpose financial statements would not necessarily disclose all matters in
              INDEPENDENT AUDITOR’S REPORT, CONTINUED

the internal control over the financial reporting process that might be significant
deficiencies. Under standards issued by the American Institute of Certified
Public Accountants, a deficiency in internal control exists when the design or
operation of a control does not allow management or employees, in the normal
course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s special-purpose financial statements will not
be prevented, or detected and corrected on a timely basis. A significant
deficiency is a deficiency or a combination of deficiencies in internal control that
is less severe than a material weakness, yet important enough to merit attention
by those charged with governance.

We found no material weaknesses in the internal control over the NRC’s financial
reporting process for the special-purpose financial statements, and our tests of
compliance with the TFM, Chapter 4700 requirements disclosed no instances of
noncompliance that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04, as amended. However, providing
opinions on internal control over the financial reporting process for the special-
purpose financial statements or on compliance with the TFM, Chapter 4700
requirements were not objectives of our audit of the special-purpose financial
statements and, accordingly, we do not express such opinions.

This report is intended solely for the information and use of the NRC’s Office of
Inspector General, NRC management, the U.S. Department of the Treasury, the
Office of Management and Budget, and the U.S. Government Accountability
Office in connection with the preparation and audit of the Financial Report of the
United States Government and is not intended to be and should not be used by
anyone other than these specified parties.




Arlington, Virginia
November 14, 2011
                                                                                          11/15/2011 08:22:12
                                        U.S.Department of the Treasury
                                         Financial Management Service                         Attachment 2
                                    Governmentwide Financial Report System

                                            GF002A - Audited FS Report


Statement:    BALANCE SHEET                           Fiscal Year: 2011             Period:    SEPTEMBER
Entity: 3100-U. S. Nuclear Regulatory Commission      Reported in: THOUSANDS        Decimal: ZERO


Agency Line Description                                      FY 2011-SEPTEMBER           FY 2010-SEPTEMBER

Assets
Intragovernmental
Fund balances with Treasury (Note 2)                                      394,580                       420,080
Accounts receivable (Note 3)                                                8,287                         7,674
Other-Advances and Prepayments                                              3,681                         3,073
Total Intragovernmental                                                   406,548                       430,827

Accounts receivable, net (Note 3)                                          92,009                       123,242
Property and equipment, net (Note 4)                                       46,542                        36,231
Other                                                                          41                            25
Total Assets                                                              545,140                       590,325

Liabilities
Intragovernmental
Accounts payable                                                           13,554                        13,876
Other (Notes 5)                                                             4,010                         5,986
Total Intragovernmental                                                    17,564                        19,862

Accounts payable                                                           29,648                        26,666
Federal employees benefits (Note 6)                                         7,245                         7,575
Other (Note 5)                                                             75,158                       106,041
Total Liabilities                                                         129,615                       160,144

Net Position
Unexpended appropriations                                                 310,332                       311,869
Cumulative results of operations (Note 8)                                 105,193                       118,312
Total Net Position                                                        415,525                       430,181
Total Liabilities and Net Position                                        545,140                       590,325




                                                        - 1 -
                                                                                            11/15/2011 08:22:12
                                       U.S.Department of the Treasury
                                        Financial Management Service                            Attachment 2
                                   Governmentwide Financial Report System

                                           GF002A - Audited FS Report


Statement:   STATEMENT OF NET COST                   Fiscal Year: 2011                Period:   SEPTEMBER
Entity: 3100-U. S. Nuclear Regulatory Commission     Reported in: THOUSANDS           Decimal: ZERO


Agency Line Description                                     FY 2011-SEPTEMBER              FY 2010-SEPTEMBER

Nuclear Reactor Safety and Security
Gross costs                                                               857,569                        882,591
Less: Earned revenue                                                     (786,741)                      (836,303)
Total Net Cost of Nuclear Reactor Safety and                               70,828                        (46,288)
Security (Note 9)

Nuclear Materials and Waste Safety and
Security
Gross costs                                                               239,350                        257,862
Less: Earned revenue                                                     (101,919)                       (87,178)
Total Net Cost of Nuclear Materials and Waste                             137,431                        170,684
Safety and Security (Note 9)

Total Gross Costs                                                        1,096,919                     1,140,453
Total Earned Revenue                                                      (888,660)                     (923,481)
Net Cost of Operations                                                     208,259                       216,972




                                                       - 2 -
                                                                                          11/15/2011 08:22:12
                                        U.S.Department of the Treasury
                                         Financial Management Service                         Attachment 2
                                    Governmentwide Financial Report System

                                          GF002A - Audited FS Report


Statement:   STATEMENT OF CHANGES IN NET            Fiscal Year: 2011               Period:    SEPTEMBER
             POSITION
Entity: 3100-U. S. Nuclear Regulatory Commission    Reported in: THOUSANDS          Decimal: ZERO


Agency Line Description                                    FY 2011-SEPTEMBER             FY 2010-SEPTEMBER

Cumulative Results of Operations
Beginning Balances                                                      118,312                        128,359

Budgetary Financing Sources
Appropriations used                                                     134,626                        137,113
Non-Exchange revenue                                                          0                              0
Transfers-in/out without reimbursement                                    9,980                         29,000

Other Financing Sources
Imputed financing from costs absorbed by others                           50,534                        40,812
Other - Revenue from excess collections                                        0                             0
Total Financing Sources                                                  195,140                       206,925
Net Cost of Operations                                                  (208,259)                     (216,972)
Net Change                                                               (13,119)                       10,047
Cumulative Results of Operations                                         105,193                       118,312
Unexpended Appropriations
Beginning Balances                                                      311,869                        338,637
Change in accounting principle                                                0                              0
Beginning Balance, as Adjusted                                          311,869                        338,637

Budgetary Financing Sources
Appropriations Received                                                  133,346                       128,345
Other Adjustments(Recission)                                                (257)                      (18,000)
Appropriations used                                                     (134,626)                     (137,113)
Total Budgetary Financing Sources                                         (1,537)                       26,768
Total Unexpended Appropriations                                          310,332                       311,869
Net Position                                                             415,525                       430,181




                                                      - 3 -
